     Department of Homeland Security




   FEMA Should Disallow $4.1 Million of the $48.5 Million 

      Public Assistance Grant Awarded to ARK Valley 

                Electric Cooperative, Kansas





DD-13-08                                            April 2013

                            OFFICE 0.1' INSPECTOR GENERAL
                                   LXpartment ofllomebml Security




                                               APR       6 2{l13

MEMORANDUM FOR:

                                                                           ent Agency

FROM:               --"'~-"D, Mic              ael   Be~.~cCdC---Cr
                                     Assistant Inspector           ne,~1
                                     Office of Emergency           Jnagement Oversight

SUBJECT:                             FEMA Should Disallow $4.1 Million of the $48.5 Million
                                     Public AS5istonce Grant Aworded ta ARK Volley Electric
                                     Cooperative, Koma5
                                     FEMA Disaster Number 1741-0R-KS
                                     Audit Report Number 00-13-08

We audited Public Assist~nce gr~nt funds awarded to ARK Valley Electric Cooperativ~
(Cooperati~~) in Kansas (Pub lic Assistance I dentifi~~tion Number OOO-UEBOK-OO). Our
audit objective w~s to determin~ whether the Cooperative ac~ounted for and exp~nded
Federal Emergency Management Agency (FEMA) grant funds according to Federal
regulation< and FEMA guidelines,

The Kansas Division of Emergency Man~gement (KDEM). a FEMA grantee, ~wa,ded the
Cooperative $48.5 million for damages resutting from severe w inter ~torms that
occurred December 6 through 19, 1007. Th~ award provided 75 percent funding for
perm~nent work (Category F) and emergency protective mea'iures (Category B) for eight
projects (one sm~11 and seven large).' Of the seven large projects, three w~re improved
project5,' The audit covered the period December 6, 1007, to September 16, 1011, the
cutoff d~t~ of our audit, and included a detailed review of projects totaling $48.5 million,
or 100 percent of the total award (see Exhibit, Schedule of Projects Audited).

We ~onducted this performance audit between June 1011 and February 2013 pursuant
to the Inspector General Act of 1978, as amended, and according to generally accepted


, ,,,der.1 r.~ul.li<lr\' in effect >tttle time of the di,.,tef ,d the I.r,w projecl thre<hold at $60,'100.
, An impro~ pmj"« allow,. ,ubr,rantee to m.ke impfo,c m"nh, but ,till re,t","e< ttle predi ,. "",
function of J d<lm.ged ta'ility. feder ~I fUMinp, tor ,uch imp<oved praj"ch ,11.11 b{, limited to 1I1e fede,,1
<hor" 01 th~ "ppm",," ",tim.le af elip;ible com {44 Code 01 ,~de(" 1 R,,~ul.t"m; (CFRI 20E;,103{d){1)),
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. We conducted this audit according to the statutes, regulations, and
   FEMA policies and guidelines in effect at the time of the disaster.

   We interviewed FEMA, KDEM, and Cooperative officials; reviewed judgmentally selected
   project costs (generally based on dollar value); and performed other procedures
   considered necessary to accomplish our objective. We did not assess the adequacy of
   the Cooperative’s internal controls applicable to grant activities because it was not
   necessary to accomplish our audit objective. However, we did gain an understanding of
   the Cooperative’s methods of accounting for disaster-related costs and its procurement
   policies and procedures.


                                      RESULTS OF AUDIT

   The Cooperative accounted for public assistance funds on a project-by-project basis as
   required by Federal regulations and FEMA guidelines. However, the Cooperative did not
   follow Federal procurement standards or use written contracts in awarding $4.1 million
   for Architectural and Engineering (A/E) work to three contractors. This occurred
   because KDEM did not adequately manage the Cooperative’s subgrant activity and did
   not ensure that the Cooperative complied with applicable Federal procurement
   standards. Therefore, FEMA should disallow $4.1 million in ineligible contract costs and
   require KDEM to develop and implement procedures to adequately monitor subgrant
   activities and to ensure that subgrantees follow Federal procurement standards.

   Finding A: The Cooperative Had $4.1 Million in Verbal Contracts with A/E Firms

   We question $4.1 million because the Cooperative did not follow Federal procurement
   standards in awarding three contracts for A/E work. Federal Regulations at 2 Code of
   Federal Regulations (CFR) 215 require that—

       •	 All procurement transactions provide, to the maximum extent practical, open
          and free competition (2 CFR 215.43).

       •	 All recipients shall establish written procurement procedures (2 CFR 215.44(a)).

       •	 Recipients take positive efforts to utilize small businesses, minority-owned firms,
          and women’s business enterprises whenever possible (2 CFR 215.44(b)).

www.oig.dhs.gov                                2                                  	      DD-13-08
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


       •	 Recipients identify the type of procuring instruments used (e.g., fixed price
          contracts, cost reimbursable contracts, purchase orders, incentive contracts)
          (2 CFR 215.44(c)).

       •	 Recipients contract with only responsible contractors that possess the potential
          ability to perform successfully under the terms and conditions of the proposed
          procurement (2 CFR 215.44(d)).

       •	 Recipients shall, on request, make pre-award review and procurement

          documents available for the Federal awarding agency (2 CFR 215.44(e)). 


       •	 Some form of cost or price analysis will be made and documented in the
          procurement files in connection with every procurement action (2 CFR 215.45).

   In December 2007, the Cooperative entered into a verbal agreement with an A/E firm to
   serve as the Cooperative’s project manager and assist with the disaster response.
   Although the Cooperative restored electrical power to its residential customers and
   critical facilities by January 6, 2008, it retained the A/E firm until July 2011 to provide
   engineering and design services, conduct field line evaluations of the rebuilt lines, and
   provide project management for the actual system restoration. The A/E firm also
   prepared construction bid documents and cost estimates; recommended contractors
   and product manufacturers; provided contractor and materials procurement oversight
   and quality control; and substantiated documentation that went to FEMA. For the
   services provided after January 6, 2008, until July 2011, the A/E firm billed the
   Cooperative $2.8 million.

   The Cooperative did not have a written contract with this A/E firm and did not award
   the work through a competitive bid process. Rather, it continued to rely on a verbal
   agreement it had with this firm for work performed before this disaster. Without a
   written contract, there was no assurance that the A/E firm was aware of or followed the
   contracting provisions required by Federal regulations, which include the following—

       •	 Contractual provisions or conditions that allow for administrative, contractual, or
          legal remedies in instances in which a contractor violates or breaches the
          contract terms (2 CFR 215.48(a)).

       •	 Suitable provisions for termination, including the manner by which termination
          will take place and the basis for settlement (2 CFR 215.48(b)).



www.oig.dhs.gov                                 3                                  	      DD-13-08
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

       •	 A provision for construction or facility improvements to provide for the recipient
          to follow its own requirements relating to bid guarantees, performance bonds,
          and payment bonds if the contract or subcontract is under $100,000. If the
          contract or subcontract exceeds $100,000, the Federal awarding agency may
          accept the bonding policy and requirements of the recipient provided the
          Federal awarding agency has made a determination that adequately protects the
          Federal Government’s interest (2 CFR 215.48(c)).

       •	 A provision that states the recipient, the Federal awarding agency, the
          Comptroller General of the United States, or any of their duly authorized
          representatives shall have access to any books, documents, papers, and records
          of the contractor that are directly pertinent to a specific program for the
          purpose of making audits, examinations, excerpts, and transcriptions
          (2 CFR 215.48(d)).

   Additionally, there was no assurance that the A/E firm was aware of other Federal
   contract provisions that Federal regulations at 2 CFR 215, Appendix A required it to
   follow such as those for—

       •	   Equal Employment Opportunity.
       •	   Copeland “Anti-Kickback” Act.
       •	   Contract Work Hours and Safety Standards Act.
       •	   Rights to Inventions Made Under a Contract or Agreement.
       •	   Clean Air Act.
       •	   Byrd Anti-Lobbying Amendment.
       •	   Debarment and Suspension.

   While serving as the Cooperative’s project manager, the A/E firm facilitated the
   solicitation and selection of other contractors. Of the contracts this A/E firm facilitated,
   it properly solicited and awarded all contracts with the exception of two, which were for
   additional contractors to perform A/E services totaling $1.3 million.

   Because the Cooperative did not competitively bid the services provided by these three
   contractors and did not perform a price analysis to determine the reasonableness of the
   contractor’s rates, open and free competition did not occur and FEMA has no assurance
   that the costs were reasonable. A cost or price analysis decreases the likelihood of
   unreasonably high or low prices, contractor misinterpretations, and errors in pricing
   relative to the scope of work. Cooperative officials said that they did not announce or
   competitively bid the contracts because they understood from KDEM officials that
   competition was not necessary for A/E firms that were already under contract.


www.oig.dhs.gov                                 4                                   	     DD-13-08
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   Finding B: Grant Management

   KDEM did not adequately manage the Cooperative’s subgrant activity and did not
   ensure that the Cooperative complied with applicable Federal procurement standards.
   KDEM officials stated that they do not review the procurement methods or Federal
   procurement standards used in awarding contracts. One KDEM official stated that
   KDEM’s general policy is to inform applicants of the applicable rules and regulations,
   including contracting regulations.

   In its FEMA/State Agreement, KDEM, as the grantee, agreed to “comply with the
   requirements of laws and regulations found in the Stafford Act and 44 CFR.” Further,
   according to 44 CFR 13.37(a)(2), the grantee is required to ensure that subgrantees are
   aware of requirements imposed on them by Federal regulations; and 44 CFR 13.40(a)
   requires the grantee to manage the day-to-day operations of subgrant activity and
   monitor subgrant activity to ensure compliance with applicable Federal requirements.

   KDEM was responsible for ensuring compliance with applicable Federal regulations and
   the FEMA/State Agreement. Therefore, FEMA should require KDEM to develop and
   implement procedures to adequately monitor subgrant activities and to ensure
   subgrantees follow Federal procurement standards.


                                    RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region VII:

   Recommendation #1: Disallow $4.1 million ($3 million Federal share) of improperly
   procured contract costs as ineligible, unless FEMA grants an exemption for all or part of
   the costs as provided for in 2 CFR 215.4 and Section 705(c) of the Robert T. Stafford
   Disaster Relief and Emergency Assistance Act (Public Law 93-288, as amended) (finding
   A).

   Recommendation #2: Require KDEM to develop and implement procedures to monitor
   subgrant activities adequately and to ensure that subgrantees follow Federal
   procurement standards (finding B).




www.oig.dhs.gov                                5                                        DD-13-08
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with FEMA, KDEM, and Cooperative officials
   during our audit and included their comments in this report, as appropriate. We also
   provided a draft report in advance to these officials and discussed it at exit conferences
   held with FEMA on January 30, 2013, and with KDEM and the Cooperative on
   February 1, 2013. FEMA and Cooperative officials generally agreed with our findings
   and recommendations, however, they both disagreed with recommendation 1. KDEM
   officials disagreed with all findings and recommendation 1, but agreed with
   recommendation 2. FEMA, KDEM, and Cooperative officials disagreed with
   recommendation 1, stating that the rates were reasonable even though the contract
   was verbal. However, because the Cooperative did not competitively bid the services
   provided by three contractors and did not perform a price analysis, there is no
   assurance that the costs were reasonable.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until we receive your
   response, we will consider the recommendations open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Tonda Hadley, Director; Moises Dugan,
   Audit Manager; Lori Smith, Auditor-in-Charge; and Patricia Epperly, Auditor.

   Please call me with any questions at (202) 254-4100, or your staff may contact Tonda
   Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                                6                                         DD-13-08
                             OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

                                                                                     EXHIBIT

                                   Schedule of Projects Audited


                     Project         Category           Award          Questioned
                     Number          of Work*          Amount            Costs
                       584               B           $     10,434      $         0
                       745               F              7,660,346           72,264
                      1219               F             10,922,510        1,158,746
                      1220               F             14,023,613        1,511,745
                      1222               F             13,944,515        1,306,308
                      1267               F                422,868            1,024
                      1268               F                961,201            2,214
                      1269               F                577,662            4,698
                      Totals                         $48,523,149        $4,056,999
                  *FEMA classifies disaster-related work by type: debris removal
                  (Category A), emergency protective measures (Category B), and
                  permanent work (Categories C through G).




www.oig.dhs.gov                                    7                                    DD-13-08
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

                                                                           APPENDIX


                                    Report Distribution

   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Procurement Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison, FEMA Region VII
   Audit Liaison, FEMA (Job Code G-12-036)

   State

   Adjutant General, Kansas Division of Emergency Management
   Legislative Post Auditor, State of Kansas

   Subgrantee

   General Manager, ARK Valley Cooperative, Kansas

   Congress

   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform




www.oig.dhs.gov                             8                                   DD-13-08
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
